              Changes to Processing Procedures and Line
              Descriptions on the Form 1040 Would Reduce
                       Erroneous Claims for Some
                           Refundable Credits

                                     June 2005

                       Reference Number: 2005-30-090




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        June 3, 2005



      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Changes to Processing Procedures and Line
                                    Descriptions on the Form 1040 Would Reduce Erroneous Claims
                                    for Some Refundable Credits (Audit # 200430021)


      This report presents the results of our review to determine the number of taxpayers that
      made erroneous claims on the “Other payments from:” line of the U.S. Individual Income
      Tax Return (Form 1040), the reasons for these claims, and any changes needed in
      Internal Revenue Service (IRS) forms and instructions, processing procedures, or
      computer programs to help prevent future erroneous claims and any associated
      refunds. We initiated this audit based on information provided by the IRS Frivolous Filer
      Unit located at the Ogden, Utah, IRS Campus.1 While screening tax returns for other
      issues, employees in this Unit identified Forms 1040 for which taxpayers were receiving
      (or were scheduled to receive) erroneous refunds of estimated tax payments or other
      payments they had made. These erroneous refunds ranged from about $5,000 to over
      $144,000.2
      In summary, we found that the misreporting of estimated tax payments and other
      payments as refundable credits on Form 1040 is not widespread. However, it can and
      has resulted in some significant erroneous refundable credits. The largest refundable
      credit in a sample of tax returns included in our review was $40,000. In most of the
      cases in our sample, the erroneous refundable credit exceeded the amount of tax owed
      and resulted in the taxpayer receiving an erroneous refund.



      1
        The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
      forward data to the Computing Centers for analysis and posting to taxpayer accounts
      2
        Many of the cases identified by the Frivolous Filer Unit did not appear in our review because the returns involved
      were not for the same tax years as those included in our sample.
                                              2

We identified two potential reasons why these erroneous entries were made by
taxpayers and/or went uncorrected by the IRS. First, the “Payments” section of
Form 1040 and the corresponding instructions, which have been in effect for over
10 years, may be confusing to some taxpayers. The “Other payments from:” line on the
Form 1040 is not intended for claiming payments; it is intended for claiming refundable
credits. This may confuse some taxpayers because they are looking for a line on which
to report payments they have made or are making with their tax returns. Additionally,
the section of the Form 1040 where the line is placed combines refundable credits and
payments, which may also confuse taxpayers. Second, current IRS processing
procedures designed to authenticate claims for refundable credits were not consistently
followed and need improvements to identify returns with erroneous amounts on the
“Other payments from:” line.
We recommended the Director, Tax Forms and Publications, Wage and Investment
(W&I) Division, change the title of the “Other payments from:” line on Form 1040 to
more accurately reflect that the line is for claiming certain refundable credits (and not for
claiming payments to the IRS) and change instructions for this line to clarify that it is not
for claiming payments made to the IRS. We also recommended the Director,
Submission Processing, W&I Division, ensure employees are aware of and follow
instructions for properly processing claims for refundable credits and change the
instructions for researching taxpayer accounts when trying to resolve unsubstantiated
claims for refundable credits. We estimated these corrective actions would result in
revenue protection of approximately $3.9 million over 5 years.
Management’s Response: IRS management generally agreed with the issues
presented in our report and did agree with the outcome to be realized by taking
corrective actions. Management disagreed with two of our three specific
recommendations but agreed to take a different corrective action. IRS management
agreed with our recommendation to improve IRS employees’ awareness of the reported
situation and took immediate corrective action. Management did not agree to change
the title of the Form 1040 “Other payments from:” line or to specifically state in the
Form 1040 instructions that the line is not for claiming estimated tax payments or any
other payments made to the IRS. However, management did agree to add clarification
to the Form 1040 instructions for this line to reinforce that it is to be used only for
payments or credits resulting from those forms specified. Management’s complete
response to the draft report is included as Appendix VII.
Office of Audit Comment: We believe the IRS’ alternative corrective action should
reasonably suffice to reduce the number of taxpayer errors.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
        Changes to Processing Procedures and Line Descriptions on the Form 1040
             Would Reduce Erroneous Claims for Some Refundable Credits




                                                  Table of Contents


Background ............................................................................................... Page 1
Some Erroneous Refunds Could Be Avoided by Changing Certain
Line Items on Form 1040 and Related Processing Practices.................... Page 3
         Recommendations 1 and 2: .............................................................Page 7
         Recommendation 3: .........................................................................Page 8

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures............................................................ Page 13
Appendix V – Page 2 of U.S Individual Income Tax Return (2004)........... Page 14
Appendix VI – Page 2 of U.S Individual Income Tax Return (2003).......... Page 15
Appendix VII – Management’s Response to the Draft Report ................... Page 16
      Changes to Processing Procedures and Line Descriptions on the Form 1040
           Would Reduce Erroneous Claims for Some Refundable Credits

                               Taxpayers must pay Federal income taxes throughout the
Background
                               year as income is earned. Generally, they pay their income
                               taxes through one of two methods. If the taxpayers are
                               employees, their employers most likely withhold income
                               taxes from their earnings and remit the withheld amounts to
                               the Internal Revenue Service (IRS). If the taxpayers do not
                               pay their taxes through withholding, they generally are
                               required to pay estimated tax payments throughout the year.
                               People who are self-employed generally pay their taxes this
                               way.
                               Estimated tax payments post to taxpayers’ accounts on the
                               IRS Master File1 and are applied (along with any withheld
                               taxes and refundable credits2) to the tax liabilities reported
                               on the taxpayers’ U.S. Individual Income Tax Returns
                               (Form 1040). If the amounts of estimated tax payments,
                               withholding, and refundable credits are greater than the tax
                               liabilities, the differences are refunded to the taxpayers.
                               The “Payments” section of the Form 1040 (see Appendix V
                               for Tax Year [TY] 2003 and Appendix VI for TY 2004) has
                               a line for taxpayers to enter the amount of their estimated
                               tax payments when computing the amount of tax they owe
                               (line 62 for TY 2003 and line 64 for TY 2004 returns).
                               However, because the amounts paid as estimated tax
                               payments have already posted to the taxpayers’ accounts,
                               the estimated tax payments are applied against the
                               taxpayers’ tax liabilities regardless of whether the taxpayers
                               record the payments on the Forms 1040.
                               This same section of the Form 1040 also has a line entitled
                               “Other payments from:” (line 67 for TY 2003 and line 69
                               for TY 2004). This line was created for taxpayers to claim
                               certain refundable credits. The line has check boxes for
                               taxpayers to indicate they are claiming the following
                               refundable credits: 1) Notice to Shareholder of


                               1
                                 The IRS database that stores various types of taxpayer account
                               information. This database includes individual, business, and employee
                               plans and exempt organizations data.
                               2
                                 Tax credits may be either refundable or nonrefundable.
                               Nonrefundable credits are limited to the amount of tax owed.
                               Refundable credits are not limited to the amount of tax. If the credit
                               exceeds the amount of tax owed, the difference is refunded to the
                               taxpayer.
                                                                                              Page 1
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                         Undistributed Long-Term Capital Gains (Form 2439),
                         2) Credit for Federal Tax Paid on Fuels (Form 4136), and
                         3) Health Coverage Tax Credit (Form 8885). In addition, a
                         number of other “write-in” refundable credits such as Claim
                         of Right Credits or Credits for Tax-Free Covenant Bonds
                         may be claimed on this line by identifying the credit in the
                         margin of the return and attaching applicable schedules (if
                         required).
                         Any amount reported on this line creates a specific
                         transaction that posts a credit to the taxpayer’s account; the
                         credit is applied against any tax liability reported on the
                         taxpayer’s Form 1040. The IRS computers define the
                         transaction as a Generated Refundable Credit Allowance,
                         Transaction Code (TC) 766. If the amount of the refundable
                         credit is greater than the tax liability, the difference is
                         refunded to the taxpayer.
                         The IRS Frivolous Filer Unit in Ogden, Utah, identified
                         Forms 1040 for which taxpayers were receiving (or were
                         scheduled to receive) erroneous refunds3 of estimated tax
                         payments or other payments they had made.4 These
                         erroneous refunds ranged from about $5,000 to over
                         $144,000.5
                         After reviewing a sample of these returns, we determined
                         the taxpayers were making a line entry error by entering
                         estimated tax payments or certain other payments on the
                         “Other payments from:” line instead of the line on which
                         they should have been reported, resulting in the taxpayers
                         receiving credit twice for the same payments.




                         3
                           For the purpose of our review, we considered a refund to be erroneous
                         if the refund was issued to the taxpayer in error and not recovered by the
                         IRS.
                         4
                           The returns identified by the Frivolous Filer Unit did not meet the IRS
                         criteria to be considered “frivolous” and so would not normally be
                         identified or worked in the Frivolous Returns Program. The erroneous
                         refundable credits that result in an erroneous refund and are identified
                         by the Frivolous Filer Unit are referred to the IRS Examination Division
                         for recovery of the erroneous refund.
                         5
                           Many of the cases identified by the Frivolous Filer Unit did not appear
                         in our sample because the returns involved were not for the same tax
                         years as those included in our sample.
                                                                                           Page 2
       Changes to Processing Procedures and Line Descriptions on the Form 1040
            Would Reduce Erroneous Claims for Some Refundable Credits

                                We initiated a review to determine the extent of this
                                problem, its cause, and changes needed to prevent the
                                generation of these erroneous refundable credits.
                                This review was performed at the Frivolous Filer Unit at the
                                Ogden, Utah, IRS Campus6 and the Error Resolution and
                                Code and Edit Offices at the Fresno, California, IRS
                                Campus during the period May through December 2004,
                                using tax return information filed nationwide. The audit
                                was conducted in accordance with Government Auditing
                                Standards. Detailed information on our audit objectives,
                                scope, and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                The misreporting of estimated tax payments and other
Some Erroneous Refunds Could
                                payments as refundable credits on Form 1040 is not
Be Avoided by Changing
                                widespread. However, it can and has resulted in some
Certain Line Items on
                                significant erroneous refundable tax credits. The largest
Form 1040 and Related
                                credit in our sample was about $40,000 and the largest
Processing Practices
                                credit in our identified population was over $98,000. In
                                most of the cases in our sample, the erroneous refundable
                                credit exceeded the amount of tax owed and resulted in the
                                taxpayer receiving an erroneous refund. Fortunately, the
                                IRS can take some relatively easy steps to minimize or
                                eliminate this problem.
                                Using computer analyses, we identified 703 TY 2002 and
                                TY 2003 individual income tax returns that met the
                                following criteria:
                                    •    The tax return had an amount on the “Other
                                         payments from:” line.
                                    •    The associated tax account on the Master File had a
                                         TC 766 for $100 or more.7
                                    •    The tax account showed some combination of
                                         payments made by the taxpayer equaling the amount
                                         of the TC 766.



                                6
                                  The data processing arm of the IRS. The campuses process paper and
                                electronic submissions, correct errors, and forward data to the
                                Computing Centers for analysis and posting to taxpayer accounts.
                                7
                                  We established this figure as part of the criteria for our audit tests; it is
                                not an IRS threshold amount.
                                                                                                       Page 3
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                         We reviewed a statistical sample of 134 of these tax returns
                         and determined that 70 (52 percent) had erroneous entries of
                         at least $500 on the “Other payments from:” line that should
                         have been corrected.
                         Further analysis of these tax returns indicated that taxpayers
                         (or their tax preparers) were responsible for the erroneous
                         entries on 63 of the 70 returns, and IRS employees had
                         incorrectly entered data into IRS computers on the other
                         7 returns. In many cases, we determined that the amounts
                         entered in error by taxpayers were actually one or more
                         estimated tax payments they had made to the IRS. Other
                         erroneous entries on the “Other payments from:” line
                         included credit card payments made by taxpayers to pay
                         their tax liabilities, remittances included with returns, and
                         payments made with requests for extensions of time to file
                         returns. Twenty-one percent of the 70 erroneous tax returns
                         were prepared by paid preparers.
                         We identified two potential reasons why these erroneous
                         entries were made or went uncorrected by the IRS.
                         The “Payments” section of Form 1040 and the
                         corresponding instructions may be confusing to some
                         taxpayers
                         The title of the line “Other payments from:” may be
                         misleading. Although the purpose of the line is for
                         reporting refundable credits, taxpayers may consider it a
                         catchall line on which to enter any payment for which the
                         taxpayer cannot find an appropriate line on the tax return.
                         This is compounded by the fact the Form 1040 has no place
                         to record a payment (credit card, check, or cash) made with
                         the tax return.
                         Instructions for the “Other payments from:” line contain one
                         sentence that guides the taxpayer to “Check the box(es) to
                         report any credit from Form 2439, 4136, or 8885.” If the
                         taxpayer has made a prior payment or is making a payment
                         with the return and is looking for a line on the return to
                         place the amount of the payment, he or she could
                         misinterpret the instruction as meaning, ‘If you have a credit
                         from one or more of these forms check the box(es). If you
                         have another payment not from one of these forms, place the
                         amount on this line and do not check any of the boxes.’ The

                                                                                Page 4
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                         instructions do not tell the taxpayer that other payments
                         cannot be placed on the “Other payments from:” line. In
                         some instances, we found taxpayers placing amounts on the
                         “Other payments from:” line, leaving the boxes unchecked,
                         and indicating the source of the payment (e.g., “credit card,”
                         “prepaid tax,” “1040-V,”8 etc.).
                         IRS processing practices allow erroneous entries to go
                         uncorrected
                         Current procedures require IRS employees to identify
                         during initial processing tax returns on which taxpayers
                         enter amounts on the “Other payments from:” line that
                         exceed a certain amount but do not indicate the type of
                         credit claimed and/or do not attach other forms required to
                         claim the credit. In most cases, employees are instructed to
                         correspond with these taxpayers to determine the reason for
                         the entry on the “Other payments from:” line. The returns
                         and associated tax accounts included in our sample showed
                         no indication the required correspondence was sent.
                         During processing, IRS computers identify for further
                         review by IRS employees all tax returns with an entry on the
                         “Other payments from:” line that are not claiming fuel tax
                         credits or are claiming fuel tax credits for amounts different
                         from the amounts the computer calculates. If taxpayers are
                         claiming one of the other credits listed on the “Other
                         payments from:” line and have attached the appropriate
                         form, IRS employees are instructed to allow the credit.
                         Also, if taxpayers have entered any of the acceptable
                         “write-in” credits in the margin, IRS employees are
                         instructed to allow the credit(s). In some cases, we found
                         IRS employees allowing the credit as long as the taxpayer
                         entered anything in the margin. For example, as discussed
                         earlier, we identified instances in which IRS employees
                         accepted amounts on the “Other payments from:” line, with
                         no boxes checked, and entries in the margins of “credit
                         card,” “prepaid tax,” or “1040-V.”
                         In some instances, the amount on the “Other payments
                         from:” line is more than the threshold amount specified in
                         the IRS processing instructions, and the taxpayer has not

                         8
                          A Payment Voucher (Form 1040-V) is a statement a taxpayer sends
                         with a remittance for any balance due on Form 1040.
                                                                                     Page 5
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                         checked a box indicating which credit he or she is taking or
                         entered one of the acceptable “write-in” credits in the
                         margin. In these cases, IRS employees are instructed to
                         research the taxpayer’s accounts for a payment amount
                         matching the amount on the “Other payments from:” line. If
                         the employees find such a payment, the entry on the “Other
                         payments from:” line is to be moved to the correct line of
                         the tax return. Because the instructions are to look for a
                         single payment rather than one or more payments, IRS
                         employees were missing some of the erroneous entries. We
                         found that 24 percent of the 70 erroneous entries on the
                         “Other payments from:” line in our sample were actually a
                         combination of 2 or more payments made by taxpayers. On
                         the other hand, if the amounts entered on the “Other
                         payments from:” line are less than the threshold amount, the
                         IRS employees are instructed to take steps to allow the
                         entries with no further research.
                         The confusion created by the Form 1040 and the problems
                         with IRS processing resulted in erroneous refundable credits
                         on 70 of the 134 tax returns in our sample.9 Based on the
                         results of our sample, we estimate 366 of the 703 tax returns
                         meeting our sample criteria contained inaccurate entries on
                         the “Other payments from:” line of Form 1040 for
                         TYs 2002 and 2003, resulting in erroneous refundable
                         credits of over $1.5 million (see Appendix IV). The average
                         amount of the erroneous refundable credits in our sample
                         was $4,275 and the largest was about $40,000. The largest
                         resulting erroneous refund in our sample was over $14,000,
                         and the largest erroneous refund in our identified population
                         was over $65,000. These figures include only those
                         taxpayers that met our specific criteria. It is reasonable to
                         assume that many other taxpayers made these errors or were
                         confused by the “Other payments from:” line, but their
                         returns did not meet our criteria or their entries on the
                         “Other payments from:” line fell below the IRS’ threshold
                         amount.




                         9
                           The IRS Frivolous Filer Unit had identified and reversed the erroneous
                         refundable credit on 8 of the 70 returns.
                                                                                         Page 6
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                         Recommendations

                         1. The Director, Tax Forms and Publications, Wage and
                            Investment (W&I) Division, whose mission is to create
                            and improve tax forms, instructions, publications and
                            other documents to help taxpayers understand and meet
                            their tax responsibilities, should change the title of the
                            “Other payments from:” line on Form 1040 to more
                            accurately reflect that this line is for claiming other
                            refundable credits and not for claiming payments made
                            to the IRS.
                         Management’s Response: IRS management agreed
                         conditionally with this recommendation. The
                         Commissioner, W&I Division, believes the current title for
                         Form 1040 line 69 is descriptive of the intended use.
                         However, the Director, Media and Publications, W&I
                         Division, will add clarification to the instructions for this
                         line to reinforce that it is to be used only for payments or
                         credits resulting from the forms listed or specified in the
                         instructions.
                         Office of Audit Comment: We believe the IRS’ alternative
                         corrective action should reasonably suffice to reduce the
                         number of taxpayer errors.
                         2. The Director, Tax Forms and Publications, W&I
                            Division, should state in the instructions for the
                            refundable credit lines on Form 1040, or in a reminder
                            on the Form itself, that these lines are NOT for claiming
                            estimated tax payments or any other payments made to
                            the IRS.
                         Management Response: IRS management does not believe
                         the instructions should be revised to state what not to
                         include on Form 1040 line 69 because it could lead
                         taxpayers to assume that, if the list of what not to include is
                         limited, then there are unlisted items that can be included.
                         However, as stated in management’s response to
                         Recommendation 1, the Director, Media and Publications,
                         W&I Division, will add clarification to the instructions for
                         this line to reinforce that it is to be used only for payments
                         or credits resulting from the forms listed or specified in the
                         instructions.

                                                                                  Page 7
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                         Office of Audit Comment: We believe the IRS’ alternative
                         corrective action for Recommendation 1 should reasonably
                         suffice to reduce the number of taxpayer errors and address
                         this recommendation.
                         3. The Director, Submission Processing, W&I Division,
                            whose responsibility is providing oversight for the
                            processing of paper and electronic individual returns and
                            related payments and refunds, should:
                             •   Ensure employees follow instructions to correspond
                                 with taxpayers who claim refundable credits but do
                                 not indicate a form to which the credit applies.
                             •   Ensure employees are aware of the acceptable
                                 “write-in” credits and accept only those specified.
                             •   Change processing instructions to require employees
                                 researching taxpayer accounts for amounts claimed
                                 on the “Other payments from:” line to look for a
                                 payment or combination of payments equaling the
                                 amount claimed as a refundable credit.
                         Management’s Response: The Director, Submission
                         Processing, W&I Division, has issued clarifying instructions
                         to Submission Processing function employees highlighting
                         the requirements to initiate the required correspondence to
                         taxpayers claiming the credit without indicating the source.
                         The clarifying instructions also delineate the credits that are
                         acceptable and advise employees researching the amounts
                         on Form 1040 line 69 to be mindful that the amounts
                         claimed may be a combination of payments.




                                                                                 Page 8
         Changes to Processing Procedures and Line Descriptions on the Form 1040
              Would Reduce Erroneous Claims for Some Refundable Credits

                                                                                                   Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine the number of taxpayers that made
erroneous claims on the “Other payments from:” line of the U.S. Individual Income Tax Return
(Form 1040), the reasons for these claims, and any changes needed in Internal Revenue Service
(IRS) education, processing, or computer programming to help prevent future erroneous claims
and any associated refunds.
To accomplish our objectives, we:
I.      Identified and evaluated controls to determine whether they were functioning properly to
        identify and stop erroneous refunds issued as a result of erroneous claims for refundable
        credits on the “Other payments from:” line of the Form 1040.
        A. Reviewed the Internal Revenue Manual procedures for handling returns with
           additional payments entered on the “Other payments from:” line without checking
           one of the three boxes indicating the source of the payment.
        B. Determined whether the controls in place at the time of the review should have
           stopped the generation of the duplicate credits.
        C. Interviewed employees in the Frivolous Filer Unit at the IRS Ogden Campus1 and
           employees in the Code and Edit, Data Conversion, and Error Resolution functions at
           the IRS Fresno Campus.
        D. Obtained available documentation for claims for erroneous refundable credits that
           were identified by the Frivolous Filer Unit, determined what control breakdowns
           allowed these refunds to be issued, and reviewed the claims for trends or similar
           characteristics.
        E. Determined whether control procedures had been changed to prevent similar
           breakdowns from occurring.
        F. Determined the extent to which erroneous claims for refundable credits were
           processed by the IRS during Tax Years (TY) 2002 and 2003.
             1. Prepared computer requests to identify erroneous refundable credits that posted to
                the IRS Master File2 from TYs 2002 and 2003. To do this, we identified tax
                returns that met the following criteria:


1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 9
         Changes to Processing Procedures and Line Descriptions on the Form 1040
              Would Reduce Erroneous Claims for Some Refundable Credits

                  a) The tax return had an amount on the “Other payments from:” line.
                  b) The associated tax account on the Master File had a Transaction Code
                     (TC) 7663 for $100 or more.4
                  c) The tax account showed some combination of payments made by the taxpayer
                     equaling the amount of the TC 766.
             2. To verify the data we received met our criteria, researched 31 accounts on the IRS
                Integrated Data Retrieval System (IDRS)5 to confirm the data in the database were
                accurate.
             3. Examined a statistical sample6 of 134 of the 703 taxpayers that were identified in
                our computer analysis. The sample was selected using a 95 percent confidence
                level, 30 percent expected error rate, and a precision of +7 percent. We ordered
                and reviewed the tax returns and researched the accounts on the IDRS to
                determine the cause of the erroneous refundable credit.
II.      Reviewed the Form 1040 and the associated instructions to determine whether the Form
         and/or instructions may be confusing to taxpayers, causing them to place the amount for
         estimated tax and/or other payments on the wrong line of the return.
         A. Reviewed the Form 1040 “Other payments from:” line to determine whether the Form
            provides adequate information about the amounts that should appear on the line.
         B. Reviewed Form 1040 instructions to determine whether they clearly inform taxpayers
            where to place estimated tax or other payments on the return.




3
  Any amount reported on the “Other payments from:” line of Form 1040 creates a specific transaction that posts a
credit to the taxpayer’s account; the credit is applied against any tax liability reported on the taxpayer’s Form 1040.
The IRS computers call the transaction a Generated Refundable Credit Allowance (TC 766).
4
  We established this figure as part of the criteria for our audit tests; it is not an IRS threshold amount.
5
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
6
  A statistical sample was used to allow us to project our sample result over our identified population.
                                                                                                               Page 10
       Changes to Processing Procedures and Line Descriptions on the Form 1040
            Would Reduce Erroneous Claims for Some Refundable Credits

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Parker Pearson, Director
Kyle R. Andersen, Audit Manager
Robert M. Jenness, Acting Audit Manager
W. George Burleigh, Lead Auditor
Lisa M. Stoy, Senior Auditor
James Adkisson, Information Technology Specialist




                                                                                       Page 11
       Changes to Processing Procedures and Line Descriptions on the Form 1040
            Would Reduce Erroneous Claims for Some Refundable Credits

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships and Education, Wage and Investment Division
SE:W:CAR
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Wage and Investment Division SE:W




                                                                                     Page 12
         Changes to Processing Procedures and Line Descriptions on the Form 1040
              Would Reduce Erroneous Claims for Some Refundable Credits

                                                                                                      Appendix IV


                                              Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $3.9 million over 5 years in erroneous refundable credits on
    366 taxpayer returns (see page 3).
Methodology Used to Measure the Reported Benefit:
Using computer programs, we identified 703 Tax Year (TY) 2002 and 2003 taxpayer returns on
the Internal Revenue Service (IRS) Individual Master File1 that met the following criteria:
•   The U.S. Individual Income Tax Return (Form 1040) had an amount on the “Other payments
    from:” line.
•   The associated tax account on the Master File had a Transaction Code (TC) 7662 for $100 or
    more.3
•   The tax account showed some combination of payments made by the taxpayer equaling the
    amount of the TC 766.
We selected a statistical sample of 134 accounts from the population of 703 accounts. Our
sample size was determined based on a 95 percent confidence level, an expected error rate of
30 percent, and a precision of +7 percent. Of the 134 returns we reviewed, 70 received
erroneous refundable credits. The average erroneous credit for the 70 returns reviewed was
$4,275 per return. When this average amount was projected to 52 percent of the population of
703, it resulted in $1,564,650 in erroneous refundable credits generated on taxpayers’ accounts
for TYs 2002 and 2003. Therefore, over 5 years the erroneous refundable credits would total
$3,911,625. We estimate the number of returns affected for TYs 2002 and 2003 totaled 366.




1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  Any amount reported on the “Other payments from:” line of Form 1040 creates a specific transaction that posts a
credit to the taxpayer’s account; the credit is applied against any tax liability reported on the taxpayer’s Form 1040.
The IRS computers call the transaction a Generated Refundable Credit Allowance (TC 766).
3
  We established this figure as part of the criteria for our audit tests; it is not an IRS threshold amount.
                                                                                                               Page 13
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                                                                 Appendix V


         Page 2 of U.S Individual Income Tax Return (2004)




                                                                      Page 14
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                                                                Appendix VI


         Page 2 of U.S Individual Income Tax Return (2003)




                                                                      Page 15
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits

                                                               Appendix VII


            Management’s Response to the Draft Report




                                                                      Page 16
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits




                                                                      Page 17
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits




                                                                      Page 18
Changes to Processing Procedures and Line Descriptions on the Form 1040
     Would Reduce Erroneous Claims for Some Refundable Credits




                                                                      Page 19
